UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 13 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JAMES L. MILLER,
Plaintiff-Appellant,
v.
SCOTT S. HARRIS, in his individual and
official capacity; DOES,____ __________

No. 19-56319
D.C. No. 2:19-cv-08910-AB-KS
Central District of California,
Los Angeles
ORDER

Defendants-Appellees.
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

The district court certified that this appeal is not taken in good faith and has
denied appellant leave to proceed on appeal in forma pauperis. See 28 U.S.C.
§ 1915(a). On November 21, 2019, the court ordered appellant to explain in
writing why this appeal should not be dismissed as frivolous. See 28 U.S.C.
§ 1915(e)(2) (court shall dismiss case at any time, if court determines it is frivolous
or malicious).____ ________________________________ ______ _______
Upon a review of the record and responses to the court’s November 21,2019
order, we conclude this appeal is frivolous. We therefore deny appellant’s motions
to proceed in forma pauperis (Docket Entry Nos. 4 and 6) and dismiss this appeal
as frivolous, pursuant to 28 U.S.C. § 1915(e)(2).
DISMISSED.

[14

Case 2:19-cv-08910-AB-KS Document 9 Filed 11/26/19 Page 1 of 1 Page ID #:81

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
JAMES L. MILLER,

CASE NUMBER:

CV 19-8910-AB (KS)
PLAINTIFF(S),
V.

SCOTT S. HARRIS, et al,
DEFENDANT(S).

ORDER ON MOTION FOR LEAVE TO APPEAL IN
FORMA PAUPERIS:
□ 28 U.S.C. 753(f)
^ 28 U.S.C. 1915

The Court, having reviewed the Motion for Leave to Appeal In Foraia Pauperis and Affidavit thereto, hereby ORDERS: (The
check mark in the appropriate box indicates the Order made.)

^ The court has considered the motion and the motion is DENIED. The Court certifies that the proposed appeal is not
taken in good faith under 28 U.S.C. 1915(a) and is frivolous, without merit and does not present a substantial question
within the meaning of 28 U.S.C. 753(f). Plaintiff is appealing this Court's denial of his application to proceed in ftorma
pauperis ("IFP") in a lawsuit filed against the Clerk of the U.S. Supreme Court and several other "members" of the
Supreme Court for their role in the denial of his petition for wit of certiorari. The Court denied Plaintiffs IFP
application as legally and/or factually frivolous with a citation to Sharma v. Stews, 790 F.2d 1486 (9th Cir. 1986).
The Clerk is directed to serve copies of this Order, by United States mail, upon theparties appearing in this cause.

11/26/2019
Date

(IrUffib--United States District Judge

□ The Court has considered the motion and the motion is GRANTED. It appears to the Court that the proposed appeal
is taken in good faith within the meaning of 28 U.S.C. 1915(a). The Court certifies that the proposed appeal is not
frivolous, that it presents a substantial question. The within moving party is authorized to prosecute an appeal in forma
pauperis to the United States Court ofAppeals for the Ninth Circuit without pre-payment of any fees or costs and without
giving security therefor.
□ A transcript is needed to decide the issue presented by the proposed appeal, all within the meaning of 28 U.S.C. 753
(f). The Court Reporter is directed to prepare and file with the Clerk of this Court an originafand one copy of a
transcript of all proceedings had in this Court in this cause; the attorney for the appellant is advised that a copy of
die transcript will be made available. The expense of such tr anscript shall be paid by the United States pursuant to
28 U.S.C. 1915(c) and 753(f).
The Clerk is directed to serve copies of this Order upon the parties appearing in this cause.

November 26, 2019
Date

A-18 ORDER (02/08)

United States Distiict Judge

ORDER ON MOTION FOR LEAVE TO APPEAL IN FORMA PAUPERIS

